GR-50-98-012
U. S. DEPARTMENT OF JUSTICE
 

Audit Report




 
Use of Department of Justice Funds by the Calumet Park, Illinois Police
Department
Audit Report Number GR-50-98-012 
April 2, 1998
 

EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of the
funds provided by the Department of Justice (DOJ) to the Village of Calumet Park, Illinois
Police Department (CPPD). We conducted the audit in response to a Criminal Division, Asset
Forfeiture and Money Laundering Section, request to review funds dispersed to CPPD from
the DOJ Asset Forfeiture Fund. Due to potential irregularities, including commingling of
funds and press reports alleging misuse of funds, we expanded our review to include funds
received by the CPPD from other DOJ components. 
With limited exceptions, DOJ funds are to be used to enhance local law enforcement
efforts, although spending requirements vary between programs. A total of $151,674 in DOJ
funding was received by the CPPD from November 1989 through December 1997. The funds
included: (1) $64,314 in federal asset forfeiture proceeds (equitable sharing funds); (2)
$68,750 in funds from the Office of Community Oriented Policing Services (COPS) for hiring
a new police officer, and (3) $18,610 in funding from the Office of Justice Programs (OJP)
for the purchase of a police vehicle. 
We reviewed account deposits and expenditures to determine if transactions were in
compliance with the DOJ's equitable sharing, COPS, and OJP financial guidelines. We
determined that the CPPD did not have adequate controls over the use of federal funds and
did not properly monitor and review account expenditures. Overall, we questioned 54
percent of funds that the DOJ provided to the CPPD. 



 The CPPD made $44,598 in unsupported or unallowable expenditures. The costs were
      incurred by Village Officials and their families including the Mayor, the Chief of Police,
      and the Assistant Chief of Police. The questionable expenditures included, but were not
      limited to, cash advances, travel, airfare and hotel costs for Village officials and their
      spouses, liquor, clothing, and souvenirs. Other unallowable expenditures included a
      gambling excursion and golf outings. Almost one-half of the total unallowable expenditures
      we identified were for costs incurred by the Mayor.






 The CPPD supplanted COPS grant funds of $37,500 by not filling a vacant police
      officer position timely. 
 The CPPD did not implement adequate internal/management controls over funds nor
      comply with DOJ requirements in the equitable sharing, COPS, and OJP financial guidelines.



#####